           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  FEDERAL EMPLOYEES RECEIVING BOTH
 FEDERAL EMPLOYEES’ COMPENSATION ACT
  AND DISABILITY INSURANCE PAYMENTS

      October 2010   A-15-09-19008




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      October 14, 2010                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Federal Employees Receiving Both Federal Employees’ Compensation Act and
           Disability Insurance Payments (A-15-09-19008)


           OBJECTIVE
           Our objective was to determine the extent to which improper payments resulted when
           Federal employees received both Social Security disability payments and Federal
           Employees’ Compensation Act (FECA) payments.

           We conducted our review for research and statistical purposes only. Our office will not
           be taking any action that might affect the rights, benefits, or privileges of specific
           individuals identified during this review. 1

           BACKGROUND
           FECA provides Federal employees injured while performing their duties with workers’
           compensation (WC) benefits, which include wage-loss benefits for total or partial
           disability, monetary benefits for permanent loss of use of a schedule member, 2 medical
           benefits, and vocational rehabilitation. FECA also provides survivor benefits to eligible
           dependents if the injury causes the employee's death. The Department of Labor (DoL)
           Office of Workers’ Compensation Programs (OWCP) administers FECA.

           The Social Security Administration’s (SSA) Disability Insurance (DI) program,
           established under Title II of the Social Security Act (Act), 3 provides benefits to
           individuals who become disabled. The Act states, when a DI beneficiary under



           1
               5 U.S.C. § 552a(a)(8)(B)(ii).
           2
             DoL’s description of a schedule “member” is functioning body parts, such as arms, legs, hands, feet,
           fingers, toes, eyes, and ears. See generally 5 U.S.C. §8107.
           3
               The Act § 223, 42 U.S.C. § 423.
Page 2 - The Commissioner


age 65 also receives public disability benefits, which includes WC, 4 a reduction of the DI
benefit may occur. 5 The Act requires that disability benefits be reduced when the
worker is also eligible for periodic or lump sum WC payments, so the combined amount
of WC and Social Security disability benefits does not exceed 80 percent of the workers’
average current earnings. 6 The combined payments after the reduction, however, will
never be less than the amount of Social Security disability benefits before the
reduction. 7

The Supplemental Security Income (SSI) program, established under Title XVI of the
Act, 8 provides payments to financially needy individuals who are aged, blind, and/or
disabled. Generally, for SSI payments, the more income an individual has, the lower his
or her payment will be. An individual whose income exceeds a certain amount in a
particular month is not eligible for SSI in that month. Overpayments result when the
recipient’s total amount of compensation received for any period exceeds the total
amount the individual should have received in SSI for that period. 9

In September 2000, DoL provided SSA with a file of FECA recipients for a one-time
match against SSA’s Master Beneficiary (MBR) and Supplemental Security Record
(SSR) to identify possible DI and SSI recipients who did not report, or incorrectly
reported, their FECA benefit payments to SSA. SSA initiated a match in July 2001 that
concluded in September 2001. The MBR match resulted in 2,732 DI output alerts
where the FECA benefit amount and/or the effective date of that benefit amount did not
match the WC offset information on the MBR. The SSR match resulted in 483 alerted
cases.

RESULTS OF REVIEW
We confirmed with SSA that improper payments resulted when recipients’ FECA
compensation was not recorded or accounted for in the calculation of their DI benefits.
In addition, we estimated improper payments that resulted when SSA did not take into
account recipients’ FECA compensation in calculating their SSI payments.

We randomly selected and examined 100 FECA recipients: 50 DI beneficiaries and
50 SSI recipients. We re-calculated the recipients’ Social Security disability benefits,

4
 WC is a temporary or permanent payment made under a Federal or State law to a worker because of a
work related injury, illness, or disease. Sources of WC payments include Insurance Carrier, State WC
Board, Self-insured employer, and DoL and other Federal WC programs.
5
    The Act § 224(a), 42 U.S.C. § 424a.
6
    Id.
7
    Id.
8
    The Act, § 1601 et seq, 42 U.S.C. § 1381, et seq; 20 C.F.R. § 416.101, et seq.
9
    See The Act §§ 1611-1612, 42 U.S.C. §§1382-1382a.
Page 3 - The Commissioner


taking into account their FECA compensation received in any years from June 2002 to
April 2010. 10 It was our goal to determine whether SSA considered FECA in calculating
Social Security benefits or whether overpayments occurred. See Appendix B for our
scope and methodology and Appendix C for our sampling methodology.

DI Beneficiaries

Of the 50 FECA recipients in our review, 32 had estimated overpayments of DI benefits
because their FECA compensation was not considered in the calculation of their DI
benefits. Five recipients did not have their FECA compensation recorded and
accounted for on their MBR; however, no estimated overpayment resulted. Seven
recipients received FECA compensation before becoming entitled to DI benefits;
therefore, they did not have to report their FECA compensation since they did not
receive FECA compensation while receiving DI benefits. The MBRs of the remaining
six recipients indicated the calculation of their DI benefits included the FECA
compensation they received. See Table 1.
                                    Table 1: DI Beneficiaries
                                                                         Number of DI
                                   Result                                 Recipients
              Recipients Without FECA Compensation Reported
              on Their MBR, Resulting in an Estimated
              Overpayment                                                      32
              Recipients Without FECA Compensation Reported
              on Their MBR with No Resulting Overpayment                        5
              Recipients Who Received FECA Compensation But
              Not While Receiving DI Benefits; Therefore, They
              Did Not Have to Report Their FECA Compensation                    7
              Recipients Whose FECA Compensation Was
              Reported                                                         6
              Total Sample Size                                                50

As shown above, 44 of the 50 recipients did not have FECA compensation reported on
their MBR. However, 37 of the 50 recipients should have had their FECA compensation
reported on their MBR. Projecting to our population of 1,502 recipients, we estimate
there were approximately 1,111 recipients who received FECA compensation and DI
benefits with no indicator on their MBR of recording, accounting for, and/or possibly
offsetting DI benefits because of their FECA compensation. Based on our re-calculation
of DI benefits, we determined there were overpayments for 32 of these 37 recipients.
Based on these findings, we project approximately $43 million in estimated
overpayments were paid to about 961 beneficiaries for whom SSA did not consider
FECA compensation in the initial calculation of their DI benefits. As of the date of this
report, 36 of the 37 recipients continue to receive DI benefits. One recipient's benefits
terminated due to death. See Appendix C for our sampling methodology.


10
  We performed our re-calculations using SSA’s Interactive Compensation Facility for DI cases and
eComputations for SSI cases.
Page 4 - The Commissioner


SSI Recipients

Of the 50 SSI recipients in our review, 21 had estimated overpayments because SSA
did not take into account their FECA compensation when calculating the recipients’ SSI
payments. In addition, for two recipients, SSA did not take into account their
compensation; however, no estimated overpayment resulted. Further, 12 recipients did
not have to report their FECA compensation because they received it before receiving
SSI payments. The SSR of the remaining 13 recipients indicated that the calculation of
their SSI payments included the FECA compensation they received. Finally, DoL
Agency Query System (AQS) 11 records for two recipients were not available; therefore,
we did not perform a re-calculation. See Table 2.
                                    Table 2: SSI Recipients
                                                                          Number of SSI
                                Result                                     Recipients
         Recipients Without FECA Compensation Reported on
         Their SSR, Resulting in an Estimated Overpayment                         21
         Recipients Without FECA Compensation Reported on
         Their SSR with No Resulting Overpayment                                   2
         Recipients Who Received FECA Compensation But
         Not While Receiving SSI Payments—They Did Not
         Have to Report Their FECA Compensation                                   12
         Recipients Whose FECA Compensation Was
         Reported on Their SSR                                                    13
         Recipients Whose FECA Compensation Was Not
         Available in DoL AQS                                                      2
         Total Sample Size                                                        50

As shown above, 35 of the 50 recipients did not have FECA compensation reported on
their SSR. However, 23 of the 50 recipients should have had their FECA compensation
reported on their SSR. Using a straight-line estimation methodology to our population
of 190, we estimate there were about 87 recipients who received FECA compensation
and SSI payments with no indicator on their SSR that SSA took into account the FECA
compensation for a possible offset against their SSI payments. Based on our re-
calculation of SSI payments, we determined 21 of the 23 recipients were overpaid.
Based on these findings, using a straight-line estimation methodology, we estimate
approximately $603,140 in overpayments was paid to about 80 recipients whose FECA
compensation was not initially accounted for in the calculation of their SSI payments.
As of the date of this report, 20 of the 23 recipients continued to receive SSI payments.
See Appendix C for our sampling methodology.




11
  AQS displays detailed information on FECA cases for injured workers from Federal agencies. It
includes demographic data, up-to-date case status information, and links to the cases’ complete
compensation payment history.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Based on the results of our analyses, the potential exists for additional overpayments to
occur and continue if SSA does not implement corrective action to improve its oversight
and monitoring of FECA payments received by DI and SSI beneficiaries. Unfortunately,
because of restrictions of the Computer Matching and Privacy Protection Act of 1988, 12
we cannot communicate the identities of the individuals noted in our comparisons.

We recommend SSA develop a computer matching agreement with DoL to identify
possible DI and SSI claimants whose benefits do not reflect the FECA compensation
they received. A matching agreement will allow SSA to perform matching activities
similar to what we performed in this review, and take appropriate action for recipients
who have overpayments that result from SSA not taking FECA compensation into
account.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix D.




                                                           Patrick P. O’Carroll, Jr.




12
  The Computer Matching and Privacy Protection Act of 1988 amended the Privacy Act by describing the
manner in which computer matching involving Federal agencies could be performed and by adding
certain protections for individuals applying for and receiving Federal benefits. 5 U.S.C. § 552a(a)(8)(B)(ii).
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
Act      Social Security Act
AQS      Agency Query System
C.F.R.   Code of Federal Regulations
DI       Disability Insurance
DoL      Department of Labor
FECA     Federal Employees’ Compensation Act
FY       Fiscal Year
ICF      Interactive Compensation Facility
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
OWCP     Office of Workers’ Compensation Programs
PCOM     Personal Communications
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
SSR      Supplemental Security Record
U.S.C.   United States Code
WC       Workers’ Compensation
                                                                                        Appendix B

Scope and Methodology
The Department of Labor (DoL), Office of Inspector General, assisted us by providing
data files from DoL’s Office of Workers’ Compensation Programs (OWCP). Those files
contained Federal Employees’ Compensation Act (FECA) recipient data. DoL also
provided us access to its Agency Query System (AQS), 1 which allowed us to determine
the amount of FECA payments made to recipients from June 2002 to April 2010. The
data files included case management 2 and 2002 through 2007 benefit payment
information. 3 We combined these files to obtain a complete FECA record for each
recipient. We compared the recipients to the Social Security Administration’s (SSA)
Master Beneficiary (MBR) 4 and Supplemental Security Records (SSR). 5 Descriptions of
the matches, extractions, and re-calculation methodologies used in this audit follow.

SSA, MBR, and SSR Matches

We matched the DoL FECA recipient data to SSA’s MBR and SSR to determine
whether the recipients had an SSA record. This resulted in 206,432 DI matches and
54,599 SSI matches. These matches represented cases where FECA recipients who
had an MBR or SSR received FECA compensation in any year from 2002 to 2007. We
summarized these matches by Social Security number (SSN) to determine unique
recipients, resulting in 54,856 DI recipients and 190 6 SSI recipients.

1
  AQS displays detailed information on FECA cases for injured workers from Federal agencies. It
includes demographic data, up-to-date case status information, and links to access the case’s complete
compensation payment history.
2
 This case information is from DoL’s National Case Management File. The types of information included
are the recipient’s name, address, SSN, type of injury, date of injury, etc.
3
 This compensation information is from DoL’s Automated Compensation Payment System. These files
contain 2002 through 2007 compensation payment data.
4
  The MBR contains information about each claimant who has applied for retirement, survivors, or
disability benefits or a claimant who enrolled in the Hospital Insurance or Supplementary Medical
Insurance program. For example, the MBR contains the claimant's name, date of birth, gender, etc.
Master File of SSN Holders and SSN Applications, SSA, Office of Systems, 60-0058, 71 Fed. Reg. 1796,
1826-1827 (Jan. 11, 2006).
5
    The SSR contains a record for each individual who has applied for Supplemental Security Income (SSI).
6
  Because the SSR reports all benefit activity from a claim’s inception to its present status, it was difficult
to determine the extent of reporting of beneficiaries with workers’ compensation based solely on an
extraction of unearned income fields. Therefore, we applied specific extractions to the population of
FECA recipients to determine whether they were entitled to SSI benefits. This resulted in 462 recipients.
We summarized the 462 by SSN to determine unique recipients. This yielded 190 recipients. From this
population we reviewed a sample of 50 recipient SSRs to determine whether SSA took into account their
FECA compensation in the calculation of their SSI benefits.


                                                      B-1
Extractions

After the match to the MBR and SSR, we performed extractions to determine the
recipients whose FECA compensation SSA did not take into account in the initial
calculation of their Social Security disability benefits.

DI Recipient Extractions

From the population of 54,856 FECA recipients who received DI benefits as primary
beneficiaries, 7 we excluded recipients who were not in current pay status 8 and had
workers’ compensation (WC) indicators on their MBR. 9 We also excluded recipients
who had WC information posted to their WC/PDB Datasheet/Query.

SSI Recipient Extractions

From the population of 54,599 SSR matches, we excluded recipients who applied for
SSI payments, but never received them, and recipients denied payments. We also
excluded recipients who were not primary beneficiaries in current pay status.

The results of the DI and SSI extractions yielded approximately 1,502 beneficiaries and
190 recipients, respectively, who received FECA compensation in any 1 year, or all
years from 2002 to 2007, and appeared not to have WC indicators on their MBR or
SSR. Although these extractions were effective, further certainty required a review of
each recipient’s MBR and SSR. We accomplished this certainty by reviewing a
statistical sample of 50 beneficiary MBRs and SSRs. If we determined that recipients’
FECA compensation was not included in the calculation of their Social Security disability
benefits, we re-calculated the benefits to determine an estimated DI or SSI
overpayment.




7
 SSA, POMS, GN 03301.002 B. A “primary beneficiary” is a Social Security numberholder entitled to
benefits on his/her own work record. An “auxiliary beneficiary” is someone entitled to benefits based on
someone else’s work record, by virtue of relationship to the numberholder.
8
  For the purposes of this review, we selected beneficiaries with Ledger Account File code “C,” which
indicates a beneficiary is in insured current payment status, that is, one who is receiving monthly benefits.
9
  When FECA recipients report their compensation, their MBR should be populated with the following WC
fields: WC type, WC/ Public Disability (WC/PDB) Benefit: Start Date, Offset Type, Offset start date,
Average Current Earnings effective date, and indicators that a beneficiary received periodic WC
payments.


                                                    B-2
Re-calculation of Social Security Disability Benefits

Based on our review of a sample of FECA recipients’ MBRs and SSRs, we confirmed
with SSA what recipients’ FECA compensation the Agency did not take into account in
the calculation of their Social Security disability benefits. Based on instructions
provided by SSA, we re-calculated the Social Security disability benefits as if the FECA
compensation was included in the calculation of their DI and SSI payments. We
performed these re-calculations by entering FECA compensation amounts the recipient
received in any 1 year, or all years, from June 2002 to April 2010, into the Interactive
Compensation Facility (ICF) of SSA’s Personal Communications (PCOM) application for
DI cases and SSI eComputations for SSI cases. The difference between what the
beneficiary received and what we re-calculated was the estimated overpayment.

Re-calculation Steps

Re-calculations of DI and SSI payments entailed the following steps.

   1. Reviewed copies of the MBR, WC/PDB Datasheet/Queries, and SSR to
      determine whether they reflected WC data.
   2. Reviewed DoL’s AQS to determine the monthly amount of FECA compensation
      paid to the recipient from June 2002 to April 2010.
   3. Determined the amount of DI and SSI payments paid to the recipient in the
      period they received FECA compensation.
   4. Entered the FECA compensation the recipient received into ICF for DI or SSI
      eComputations for SSI to re-calculate benefits.
   5. Determined whether there was an overpayment of DI or SSI benefits.

An Operations Analyst and Program Expert from SSA’s Office of Disability Operations
provided instructions and assisted us in re-calculating the DI benefits. For the sample
of 50 beneficiaries we tested who received DI benefits, they confirmed instances where
improper payments resulted because SSA did not take into account the recipients’
FECA compensation in the calculation of their DI benefits. They also reviewed
20 percent of the re-calculated DI benefits we performed to ensure accuracy.

In addition, an analyst from SSA’s Office of Applications and Supplemental Security
Income Systems provided us instructions of how to re-calculate SSI payments that
include WC. Based on the analyst’s instructions, we performed re-calculations for the
sample of 50 recipients who received SSI payments to estimate improper payments that
resulted when SSA did not take into account the recipients’ FECA compensation in the
calculation of their SSI payments.




                                          B-3
The Privacy Act

The Privacy Act of 1974, as amended, places limitations on the use of records.
According to the Privacy Act, “…no record which is contained in a system of records
may be disclosed to a recipient agency or non-Federal agency for use in a computer
matching program except pursuant to a written agreement between the source agency
and the recipient agency or non-Federal agency....” 10 However, the term “matching
program” does not include “…matches performed to support any research or statistical
project; the specific data of which may not be used to make decisions concerning the
rights, benefits, or privileges of specific individuals.” 11 This applies to our computerized
comparison of data, which we performed for research and statistical purposes only.

Data Reliability

We determined that the data used in this report were sufficiently reliable given the audit
objective and intended use of the data. We did not review DoL recipient case files to
determine whether any additional FECA data provided by DoL’s OIG were accurate,
complete, and valid. Furthermore, we did not assess SSA’s internal controls used to
administer its FECA program. We performed our fieldwork from February to June 2010.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




10
     5 U.S.C. § 552a(o)(1).
11
     5 U.S.C. § 552a(a)(8)(B)(ii).


                                             B-4
                                                                                    Appendix C

Sampling Methodology
The Department of Labor provided us access to its Agency Query System, which
allowed us to ascertain the amounts of Federal Employees’ Compensation Act (FECA)
compensation paid to recipients from 2002 to 2010. We determined there were
54,856 Disability Insurance (DI) beneficiaries and 190 Supplemental Security Income
(SSI) recipients who had a Master Beneficiary (MBR) or Supplemental Security Record
(SSR), respectively. Based on our extractions, we determined that 1,502 FECA
recipients possibly received DI benefits without the Social Security Administration (SSA)
taking into account their FECA compensation in the initial calculation of their Social
Security disability benefits. We also determined that 190 recipients received SSI
payments that may or may not have been calculated taking into account the FECA
compensation received. Although our extractions were effective, further certainty
required a review of the recipients’ MBRs and SSRs. We accomplished this by
randomly selecting samples of 50 DI beneficiaries and 50 SSI recipients to determine
whether SSA took into account their FECA compensation or whether overpayments
occurred.

We identified two sampling frames, DI and SSI. The DI sample included FECA
recipients who received DI benefits as primary beneficiaries, 1 were in current pay
status, and whose FECA compensation was not included in the calculation of their DI
benefits on their MBR. The SSI sample included FECA recipients who received SSI
payments, who were in current pay status, and whose FECA compensation was not
included in the calculation of their SSI payments on their SSR.

DI

We projected our results based on our review of 50 FECA recipients who received DI
benefits. We projected FECA recipients who received DI benefits with no indicator that
SSA took into account their FECA compensation in the calculation of their benefits. The
following table provides the details of our sample results and statistical projection.




1
 SSA, Program Operations Manual System, GN 03301.002 B. A “primary beneficiary” is a Social
Security numberholder entitled to benefits on his/her own work record. An “auxiliary beneficiary” is
someone entitled to benefits based on someone else’s work record, by virtue of relationship to the
numberholder.


                                                   C-1
           Sample Results and Attribute Projection for FECA Recipients Who
                 Received DI Benefits with No Indicator That Their FECA
                     Compensation Was Recorded and Accounted for
          Population Size                                               1,502
          Sample Size                                                      50
          Number of Instances Where DI Beneficiaries Received
          SSA Disability Benefits with No Indicator That FECA
          Compensation Was Recorded and Accounted for                      37
          Point Estimate                                                1,111
          Lower Limit                                                     933
          Upper Limit                                                   1,257
          Note: Projections are at the 90-percent confidence level.

We developed attribute and variable projections based on the 50 FECA recipients who
received DI benefits with no indicator that FECA compensation was recorded and
accounted for that resulted in an estimated overpayment. The following table provides
the details of our sample results and statistical projections.

          Sample Results Where FECA Recipients Received DI Benefits with
           No Indicator That Their FECA Compensation Was Recorded and
                    Accounted for That Resulted in an Overpayment
         Population Size                                               1,502
         Sample Size                                                      50
         Number of Instances Where DI Beneficiaries Received
         SSA Disability Benefits with No Indicator That FECA
         Compensation Was Recorded and Accounted for that
         Resulted in an Overpayment                                       32
         Resulting Overpayments for DI Beneficiaries Whose FECA
         Compensation Was Not Recorded and Accounted for          $1,444,351
                                    Attribute Projection
         Point Estimate                                                  961
         Lower Limit                                                     776
         Upper Limit                                                   1,128
                                     Variable Projection
         Point Estimate                                         $43,388,304
         Lower Limit                                            $29,746,908
         Upper Limit                                            $57,029,700
         Note: Projections are at the 90-percent confidence level.




                                                 C-2
SSI

We performed a straight-line estimate for the FECA recipients who received SSI
payments with no indicator that SSA took into account their FECA compensation. From
our sample of 50 recipients, we determined that 23 (46 percent) received SSI payments
with no indicator that SSA took into account their FECA compensation. Therefore, we
estimate 87 of the 190 displayed this characteristic.

               Sample Results Where FECA Recipients Received SSI with No
                   Indicator Their FECA Compensation Was Recorded and
                                         Accounted for
             Population Size                                           190
             Sample Size                                                50
             Number of Instances Where Recipients Received
             SSI with No Indicator That FECA Compensation
             Was Recorded and Accounted for                             23
             Percentage                                                 46
             Straight Line Estimate of Recipients                       87

Further, 21 of the 50 (42 percent) recipients received SSI payments with no indicator on
their SSR that SSA took into account their FECA compensation, resulting in
overpayments of $158,721. A straight-line estimate 2 resulted in a total estimated
overpayment of $603,140 for 80 recipients. The following table provides the details of
our sample results and estimate.

             Sample Results Where FECA Recipients Received SSI Payments
             with No Indicator That Their FECA Compensation Was Recorded
                    and Accounted for That Resulted in an Overpayment
            Population Size                                             190
            Sample Size                                                  50
            Number of Instances Where Recipients Received
            SSI with No Indicator That FECA Compensation
            Was Recorded and Accounted for                               21
            Percentage                                                   42
            Straight-Line Estimate of Recipients                         80
            Amount Overpaid                                        $158,721
            Straight-Line Estimate of Overpayments2                $603,140




2
 We based our straight-line estimate on the following equation: $158,721/50 X 190. We used a similar
calculation for the estimate of recipients.


                                                 C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      September 16, 2010                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Federal Employees Receiving Both
           Federal Employees’ Compensation Act and Disability Insurance Payments” (A-15-09-19008) --
           INFORMATION


           Thank you for the opportunity to review the subject draft report. Please see our attached
           comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FEDERAL EMPLOYEES RECEIVING BOTH FEDERAL EMPLOYEES’
COMPENSATION ACT AND DISABILITY INSURANCE PAYMENTS” (A-15-09-19008)

Thank you for the opportunity to review the subject report. We offer the following comments
and a response to your recommendation.

GENERAL COMMENTS

Your report focuses on the entire population of persons receiving Federal Employees
Compensation Act (FECA) payments who may also be improperly receiving Disability Insurance
(DI) or Supplemental Security Income (SSI) disability payments. On September 14, 2006, you
issued a report titled, “Federal Employees’ Compensation Act – Social Security Administration
Employees (A-15-06-26123).” As the title suggests, your 2006 study focused more narrowly on
only former Social Security Administration (SSA) employees. You reached similar conclusions
in both reports that some FECA beneficiaries may also be receiving DI and SSI payments
improperly.

In the first report, you recommended that “SSA coordinate with the OIG to develop a computer
matching agreement with [Department of Labor (DoL)] to acquire FECA recipient data to match
on a periodic basis with data contained in SSA’s systems.” We agreed with your September
2006 recommendation, and, in fact, had already begun negotiations some months prior to
establish such a match with the DoL. We drafted an agreement, and by May 2006, two of our
executives had signed it. There is no indication, however, that DoL ever signed the agreement.

We were unsuccessful in determining why the agreement was not concluded with DoL. The
executives who signed it left the agency more than two years ago, and no one remains who can
recall any specifics about the situation. Some recollect that there may have been some resistance
on the part of DoL, but we cannot definitively say that was the case. All this notwithstanding,
we plan to pursue establishing a matching agreement with DoL as you recommend.

RESPONSE TO RECOMMENDATION

Recommendation

Develop a computer matching agreement with DoL to identify possible DI and SSI claimants
whose benefits do not reflect the FECA compensation they received. A matching agreement will
allow SSA to perform matching activities similar to what we performed in this review and take
appropriate action for recipients who have overpayments that result from SSA not taking into
account FECA compensation.




                                               D-2
Response

We agree.

We are currently drafting a computer matching agreement for this purpose and have started
discussions with the DoL. Under the agreement, we will ask DOL’s Office of Workers’
Compensation Programs to:

“disclose Federal employee compensation benefit data to the Social Security Administration
(SSA). The disclosure will provide SSA with information necessary to verify the accuracy of
payment eligibility factors for the Supplemental Security Income (SSI) program … and the Title
II disability insurance program .…”

We have determined that the legal authority to perform this computer match is included in
Sections 224(h)(1) and 1636(f) of the Social Security Act which require Federal agencies to
furnish us with information necessary to verify eligibility for the SSI and DI programs.

This agreement will also be governed by the Computer Matching Privacy Protection Act of 1998
(CMPPA). Under CMPPA, we are required to have both agencies Data Integrity Boards approve
the agreement, publish a Federal Register Notice, and in addition, send notification to OMB and
Congress.




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager

Acknowledgments

In addition to those named above:

   Ronald Anderson, Auditor-In-Charge

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-19008.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
